                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              LOS ANGELES JOB CORPS CENTER:
                                              ALLEGATIONS OF MISUSE OF DEPARTMENT OF
                                              LABOR FUNDS AND PROPERTY




                                                                    Date Issued: September 29, 2006
                                                                    Report Number: 09-06-005-01-370
U.S. Department of Labor                                   SEPTEMBER 2006
Office of Inspector General
Office of Audit                                        Los Angeles Job Corps Center:
                                                       Allegations of Misuse of
BRIEFLY…                                               Department of Labor Funds and
                                                       Property
Highlights of Report Number: 09-06-005-01-370, to
Esther R. Johnson, National Director, Office of Job
Corps.                                                 WHAT OIG FOUND
                                                       Of the six allegations, one was substantiated, one
WHY READ THE REPORT                                    could not be answered, and four were
This report discusses the merits of a hotline          unsubstantiated:
complaint alleging the Young Women’s Christian
Association (YWCA), operator of the Los Angeles        1. The allegation the YWCA charged the Job
Job Corps Center (Center) misused Department of           Corps contract for the cost of a proposal for the
Labor funds and property and makes                        Long Beach Center was substantiated. We also
recommendations where appropriate.                        found the Center charged similar costs for the
                                                          Los Angeles Center in 2005. We believe that
                                                          these costs were unallowable direct costs and
WHY OIG DID THE AUDIT
                                                          we are questioning $300,870.
The Office of Inspector General conducted an audit
of the Center, which is operated by the YWCA of
                                                       2. The allegation the YWCA Chief Executive
Greater Los Angeles. The audit was initiated to
                                                          Officer (CEO) used a government vehicle for
determine the merits of a hotline complaint alleging
                                                          personal use could not be answered. The CEO
that the YWCA: (1) charged costs to develop a
                                                          did have a government vehicle for 3 years, but
proposal to operate the Long Beach Center to the
                                                          detailed trip records were not kept. Therefore,
Job Corps contract; (2) allowed the CEO to use a
                                                          we could not determine if the vehicle was used
government vehicle for private purposes; (3)
                                                          for personal purposes. However, the Center did
charged unnecessary bank fees to the Job Corps
                                                          not bill the YWCA for the annual insurance costs
contract; (4) charged the cost of a new accounting
                                                          on the vehicle and we are questioning $3,000.
system to the Job Corps contract; (5) operated a
child care center on contaminated land; and (6)
                                                       3. The allegation the YWCA charged unnecessary
required Center employees to join an illegal YWCA
                                                          bank fees of about $3,000 to the Job Corps
pension plan.
                                                          contract was not substantiated.
READ THE FULL REPORT                                   4. The allegation that costs of about $100,000 for a
To view the report, including the scope,                  YWCA accounting system were charged to the
methodology, and full agency response go to:              Job Corps contract was not substantiated.

http://www.oig.dol.gov/public/reports/oa/2006/09-      5. The allegation the YWCA operated a child care
06-005-01-370.pdf                                         center on contaminated land was not
                                                          substantiated.

                                                       6. The allegation the YWCA required Center
                                                          employees to join an illegal pension plan was
                                                          not substantiated.

                                                       WHAT OIG RECOMMENDED
                                                       We recommended the National Director, Office of
                                                       Job Corps recover $300,870 for proposal
                                                       development and $3,000 for vehicle insurance costs,
                                                       and direct the YWCA to comply with DOL
                                                       regulations on vehicle use.

                                                       The National Director, Office of Job Corps,
                                                       concurred with our recommendations.
                                                                                Los Angeles Job Corps Center:
                                                              Allegations of Misuse of DOL Funds and Property



Table of Contents
                                                                                                                      PAGE

TABLE OF CONTENTS.................................................................................................. 1

EXECUTIVE SUMMARY ................................................................................................ 3

ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

    1. The YWCA charged the Job Corps contract for the cost of developing a
       proposal for the operation of the Long Beach Job Corps Center.................. 8

    2. We could not substantiate the allegation the CEO of the YWCA used a
       government vehicle for personal use ............................................................... 9

    3. The YWCA did not charge unnecessary bank fees to the Job Corps
       contract. ............................................................................................................ 10

    4. The costs for a new YWCA accounting system were not improperly
       charged to the Job Corps contract ................................................................. 11

    5. The YWCA did not operate a child care center on contaminated land ........ 11

    6. Center employees were not required to join an illegal pension fund
       operated by the YWCA ..................................................................................... 11

APPENDICES ............................................................................................................... 13

    A.   APPENDIX A            Background............................................................................... 15
    B.   APPENDIX B            Objective, Scope, Methodology, and Criteria......................... 17
    C.   APPENDIX C            Acronyms and Abbreviations .................................................. 19
    D.   APPENDIX D            Agency Response to Draft Report .......................................... 21




U.S. Department of Labor – Office of Inspector General                                                                       1
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                  Los Angeles Job Corps Center:
                                                Allegations of Misuse of DOL Funds and Property



Executive Summary
Six allegations were made against the Young Women’s Christian Association of Greater
Los Angeles (YWCA), the operator of the Los Angeles Job Corps Center (Center). The
allegations, in brief, were (1) charging proposal development costs to the Job Corps
contract, (2) using a government vehicle for private purposes, (3) charging unnecessary
bank fees to the Job Corps contract, (4) charging the cost of a new YWCA accounting
system to the Job Corps contract, (5) operating a child care center on contaminated
land, and (6) requiring Center employees to join an illegal YWCA pension plan.

Our audit objective was to determine if the allegations were substantiated.
Specifically, we answered the following questions:

     1.    Did the YWCA charge the Job Corps contract for the cost of developing a
           proposal in response to a Request for Proposal (RFP) issued by the Job
           Corps for the operation of the Long Beach Job Corps Center?

     2.    Did the CEO of the YWCA use a government vehicle for personal use?

     3.    Were costs incurred as the result of the CEO’s decision to change banks
           unreasonable?

     4.    Were costs for a new YWCA accounting system charged to the Job Corps
           contract?

     5.    Was a child care center operated by the YWCA and used by the Center
           operated on contaminated land?

     6.    Were Center employees required to join an illegal pension fund operated by
           the YWCA?

Results

Of the six allegations, we found one was substantiated, one could be neither
substantiated nor disproved due to lack of documentation, and four were
unsubstantiated, as summarized in the following paragraphs:

   1. The complaint alleged the YWCA charged the Job Corps contract for the cost of
      developing a proposal in response to an RFP issued by Job Corps to operate the
      Long Beach Job Corps Center. This allegation was substantiated. We also
      found the Center charged the existing Job Corps contract for the cost of
      developing a proposal for awarding the contract to operate the Center in Los
      Angeles in 2005. Total cost to prepare both proposals was estimated to be


U.S. Department of Labor – Office of Inspector General                                       3
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property

       $300,870. We believe that these costs were unallowable direct costs and we are
       questioning this amount.

    2. The complaint alleged the CEO of the YWCA used a government vehicle for
       personal use. We could not determine the answer to this allegation. The CEO
       did have a government vehicle assigned to her for 3 years, but detailed trip
       records were not kept. Therefore, we could not determine if the vehicle was
       used for personal purposes. However, the Center billed the YWCA for the
       monthly use of the vehicle, but did not bill the YWCA for $3,000 of annual
       insurance costs on the vehicle. Accordingly, we are questioning the $3,000 in
       unbilled insurance costs.

    3. The complaint alleged the YWCA charged unnecessary bank fees of about
       $3,000 to the Job Corps contract as a result of the CEO’s improper actions
       related to changing banks. This allegation was not substantiated. We did not
       find the CEO’s actions in changing banks to be unreasonable.

    4. The complaint alleged costs of about $100,000 for a new YWCA accounting
       system were improperly charged to the Job Corps contract. This allegation was
       not substantiated. We determined costs for the new YWCA accounting system
       were not paid with Job Corps contract funds.

    5. The complaint alleged a child care center operated by the YWCA, but used
       occasionally by Center staff and students, was on contaminated land. This
       allegation was not substantiated. We determined the YWCA had assurances
       that the land had been tested and found to be free of contaminants. We verified
       the testing results with the appropriate county agency.

    6. The complaint alleged Center employees were required to join an illegal pension
       plan operated by the YWCA. This allegation was not substantiated. We
       determined the Center had its own pension plan and Center employees were not
       eligible to join the YWCA plan. Furthermore, the IRS had approved both plans.

Recommendations

We recommend the National Director, Office of Job corps:

    1. Recover $300,870 representing the total estimated proposal development costs
       improperly charged to the Job Corps contract.

    2. Recover $3,000 in insurance cost associated with the GSA leased vehicle used
       by the CEO of the YWCA.

    3. Direct the Center and the YWCA to comply with all provisions of DOL regulations
       and Center policy regarding the use of U.S. Government vehicles.


4                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                  Los Angeles Job Corps Center:
                                                Allegations of Misuse of DOL Funds and Property

Agency Response

The National Director, Office of Job Corps, concurred with our recommendations and
agreed to request return of the funds and direct the YWCA to comply with all
Department of Labor’s vehicle policies. The National Director, Office of Job Corps, also
stated the Regional Office would closely monitor the YWCA’s compliance.

OIG Conclusion

We agree with Job Corps’ planned corrective actions and consider the
recommendations resolved and open. The recommendations will be closed upon the
OIG’s verification that the funds have been requested and returned.




U.S. Department of Labor – Office of Inspector General                                       5
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                        U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property

U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                         Assistant Inspector General’s Report

Ms. Esther R. Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Ave., N.W.
Washington, D.C. 20210


The Office of Inspector General (OIG) audited a complaint made against the Young
Women’s Christian Association of Greater Los Angeles (YWCA), the operator of the Los
Angeles Job Corps Center (Center). The complaint alleged that the YWCA (1) charged
proposal development costs to the Job Corps contract, (2) used a government vehicle
for private purposes, (3) charged unnecessary bank fees to the Job Corps contract, (4)
charged the cost of a new YWCA accounting system to the Job Corps contract, (5)
operated a child care center on contaminated land, and (6) required Center employees
to join an illegal YWCA pension plan.

Our audit objective was to determine if the allegations were substantiated. Specifically,
we answered the following questions:

     1.   Did the YWCA charge the Job Corps contract for the cost of developing a
          proposal in response to a Request for Proposal (RFP) issued by Job Corps
          for the operation of the Long Beach Job Corps Center?

     2.   Did the CEO of the YWCA use a government vehicle for personal use?

     3.   Were costs incurred as the result of the CEO’s decision to change banks
          unreasonable?

     4.   Were costs for a new YWCA accounting system charged to the Job Corps
          contract?

     5.   Was a child care center operated by the YWCA and used by the Center
          operated on contaminated land?

     6.   Were Center employees required to join an illegal pension fund operated by
          the YWCA?


U.S. Department of Labor—Office of Inspector General                                       7
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property

Of the six allegations, we found one was substantiated, one could be neither
substantiated nor disproved due to lack of documentation, and four were
unsubstantiated. We conducted our audit in accordance with Government Auditing
Standards. Our audit scope, methodology, and criteria are detailed in Appendix B.

The details of our audit results are provided in the following sections.

Objective 1 – Did the YWCA charge the Job Corps contract for the cost of
developing a proposal in response to an RFP issued by Job Corps for the
operation of the Long Beach Job Corps Center?

Results
The YWCA charged the Job Corps contract for the cost of developing a proposal for the operation of the Long Beach Job Corps Center


Yes. This allegation was substantiated. The YWCA charged the Job Corps contract
directly for the cost of developing a proposal in response to an RFP issued by Job
Corps for the operation of the Long Beach Job Corps Center. Specifically, Center staff
spent several thousand hours in 2005 preparing a proposal to assist in operating the
Long Beach Job Corp Center. According to an estimate prepared by the Center, the
cost of these hours totaled $221,598. This time was paid for with Job Corps contract
funds. This violates applicable cost principles.

We also found the Center charged the existing Job Corps contract for the cost of
developing a proposal for awarding the contract to operate the Center in Los Angeles in
2005. This also violates applicable cost principles.

In order for a particular cost to be allowable, it must be both reasonable and allocable.
OMB Circular A-122, Attachment A, which applies to nonprofit organizations, contains
specific factors which affect the allocability of costs. The Circular, Attachment A,
paragraph 4, provides the following guidance in regards to allocable costs:

                      A. A cost is allocable to a particular cost objective, such as a
                         grant, contract, project, service, or other activity, in
                         accordance with the relative benefits received. A cost is
                         allocable to a Federal award if it is treated consistently
                         with other costs incurred for the same purpose in like
                         circumstances and if it:

                                       a. Is incurred specifically for the award

                                       b. Benefits both the award and other work and can
                                          be distributed in reasonable proportion to the
                                          benefits received, or
                                       c. Is necessary to the overall operation of the
                                          organization, although a direct relationship to any
                                          particular cost objective cannot be shown.



8                                                                          U.S. Department of Labor – Office of Inspector General
                                                                                               Report Number: 09-06-005-01-370
                                                                                                     Los Angeles Job Corps Center:
                                                                                   Allegations of Misuse of DOL Funds and Property

These costs are not allocable based on the above criteria.

The Center established internal controls to track and record the cost of special projects
such as proposal development. Center policy is to keep detailed records of time and
expenses incurred by employees when they work on special projects and then bill the
YWCA accordingly. This procedure had been used to track costs of previous special
projects.

We interviewed Center staff who worked on the proposals to determine why the
proposal costs were not handled in accordance with established policy. We were told
the CEO of the YWCA instructed the staff not to separately keep track of costs incurred
for the proposals.

The CEO confirmed this instruction. She told us she considered the proposal costs to
be staff development costs and therefore allowable as direct charges to the Center
contract.

We disagree. We believe the costs are unallowable since they do not meet the criteria
set forth in OMB Circular A-122.

According to an estimate prepared by Center staff, the Center incurred total costs of
$221,598 to develop the Long Beach proposal and $79,272 to develop the Los Angeles
proposal. These costs were billed as a direct cost. The effect of this condition is that
direct costs were overstated by a total of $300,870.

Objective 2 – Did the CEO of the YWCA use a government vehicle for personal
use?

Results
We could not substantiate the allegation the CEO of the YWCA used a government vehicle for personal use


We could not determine the answer to this objective. The complaint alleged that the
CEO of the YWCA used a vehicle that was leased from the General Services
Administration (GSA) by DOL and assigned to the Center for ongoing and continuous
personal use. We interviewed staff at the Center, reviewed the internal controls in place
over government vehicles, and conducted a physical inventory of the Center’s
government vehicles.

We found that the CEO of the YWCA was in continuous possession of a government
vehicle beginning in July 2001 and ending in May 2005. During this time, the Center’s
normal internal controls over vehicle use were not executed for the vehicle used by the
CEO. Specifically, the Center’s internal guidance required a purpose be recorded for
each trip where a vehicle is used. This was not done by the CEO while she had the
vehicle.

ETA Property Management Handbook No. 359 governed the use of leased vehicles
during this time period. The handbook prohibited overnight retention of a U.S.


U.S. Department of Labor—Office of Inspector General                                                                            9
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property

Government vehicle by an individual. The handbook stated: “Overnight retention of a
U.S. Government vehicle by an individual is prohibited.” The handbook allowed
overnight retention only if the operator’s return from official travel was scheduled after
normal duty hours, or in case of an emergency. The handbook further stated
contractors were expected to maintain records of all instances that vehicles where
retained overnight.

The CEO requested the vehicle in July 2001. The vehicle was returned to the Center in
May 2005. The CEO of the YWCA informed us that during the time she had the vehicle,
she was heavily involved in locating property for renovation and expansion of the
Center. While this is indeed official business, in our opinion, this does not constitute
overnight or emergency retention as defined above. Furthermore, the Center did not
maintain records of all instances that the CEO retained the vehicle overnight.

While the vehicle was in the CEO’s possession and on a monthly basis, the Center’s
Transportation Manager recorded the number of miles driven for the vehicle and
forwarded this information to GSA. Based on this information, GSA billed the Center for
monthly usage of the vehicle. The Center then billed the YWCA for this same amount.
Usage of the vehicle for the 4-year period totaled $9,925. The YWCA paid for the
vehicle from its “Unrestricted Funds” Account.

Per ETA Property Management Handbook No. 359, “the contractor must obtain liability
and property damage insurance on every Government-owned vehicle assigned to the
contract, including all vehicles obtained through the GSA Interagency Motor Pool
System.” The Center obtained the required liability and property damage insurance for
the vehicle in the CEO’s possession. However, the Center did not bill the YWCA for the
cost of insurance while the vehicle was in the CEO’s possession. Total Insurance costs
were $3,000.

Since the required documentation was not maintained, it is impossible to know if the
CEO used the vehicle for personal use. However, since the cost of the vehicle was
borne by the YWCA, it follows that the insurance cost also should be assigned to the
YWCA. Therefore, we question $3,000 of insurance costs for the vehicle.


Objective 3 – Were costs incurred as the result of the CEO’s decision to change
banks unreasonable?

Results
The YWCA did not charge unnecessary bank fees to the Job Corps contract.


No. The complaint alleged the YWCA had charged unnecessary bank fees of about
$3,000 related to changing banks in 2004 to the Job Corps contract. We interviewed
Center staff and the CEO of the YWCA about the bank fees and the decision to change
banks in 2004. The initial decision to switch banks related to poor service from the
original bank. However, shortly after opening a new account, the new bank closed its
location near the Center. Therefore, the account was switched back to the original

10                                                                         U.S. Department of Labor – Office of Inspector General
                                                                                               Report Number: 09-06-005-01-370
                                                                                                      Los Angeles Job Corps Center:
                                                                                    Allegations of Misuse of DOL Funds and Property

bank. We did not find any evidence that the CEO acted improperly in making these
banking decisions. Therefore, we concluded the allegation was not substantiated.

Objective 4 – Were costs for a new YWCA accounting system improperly charged
to the Job Corps contract?

Results
The costs for a new YWCA accounting system were not improperly charged to the Job Corps contract


No. The complaint alleged the YWCA had improperly charged about $100,000 of the
cost of a new YWCA accounting system to the Job Corps contract. In 2003, the YWCA
began implementation of a new accounting software package. The total cost of the
system was approximately $900,000 (including software, training, hosting, legal, and
consultant fees). We reviewed invoices and copies of checks totaling $414,180 (45
percent of the total cost). Each of the invoices was received (evidenced by a dated
“Receipt Stamp”) and paid for by the YWCA and not charged to the Job Corps contract.
Furthermore, we interviewed the Center’s Finance Manager and she confirmed that she
had not charged the Job Corps contract for any of the cost of the new accounting
system, nor has the Center paid any bills for the new accounting system. Therefore, we
concluded the allegation was not substantiated.

Objective 5 – Was a child care center owned and operated by the YWCA on
contaminated land?

Results

No. The Complaint alleged the YWCA owned and operated a child care center on
contaminated land that had not been certified by the State of California. We found that
the YWCA had obtained certification from the County of Los Angeles Department of
Health Services that the site was not contaminated. In addition, we verified with the
County of Los Angeles Department of Health Services that the land had been tested
and was free of contaminants. Therefore, we concluded the allegation was not
substantiated.

Objective 6 – Were Center employees required to join an illegal pension fund
operated by the YWCA?

Results
Center employees were not required to join an illegal pension fund operated by the YWCA


No. The complaint alleged the YWCA required Center employees to join an illegal
pension fund operated by the YWCA. We interviewed the Center’s Assistant Controller,
the Center Director, and the YWCA CEO. Each of them stated that the pension plans
for the YWCA and the Center were separate and that Center employees were not
eligible to join the YWCA plan. In addition, we verified that the IRS had approved both
plans as meeting IRS requirements as legal plans. Therefore, we concluded the
allegation was not substantiated.



U.S. Department of Labor—Office of Inspector General                                                                            11
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property

Recommendations

We recommend the National Director, Office of Job Corps:

     1. Recover $300,870 representing the total estimated proposal development costs
        improperly charged to the Job Corps contract.

     2. Recover $3,000 in insurance cost associated with the GSA leased vehicle used
        by the CEO of the YWCA.

     3. Direct the Center and the YWCA to comply with all provisions of DOL regulations
        and Center policy regarding the use of U.S. Government vehicles.

Agency Response

The National Director, Office of Job Corps, concurred with our recommendations and
agreed to request return of the funds and direct the YWCA to comply with all
Department of Labor’s vehicle policies. The National Director, Office of Job Corps, also
stated the Regional Office would closely monitor the YWCA’s compliance.

OIG Conclusion

We agree with Job Corps’ planned corrective actions and consider the
recommendations resolved and open. The recommendations will be closed upon the
OIG’s verification that the funds have been requested and returned.



Elliot P. Lewis
May 25, 2006




12                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property




Appendices




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property

                                                                              APPENDIX A
                                      BACKGROUND

Through a nationwide network of campuses, Job Corps offers career development
services to at-risk young women and men, ages 16-24, to prepare them for successful
careers. Job Corps employs a career development training approach which integrates
the teaching of academic, vocational, and employability skills and social competencies
through a combination of classroom, practical, and work based learning experiences to
prepare youth for stable, long-term, high-paying jobs. Job Corps was originally
established by the Economic Opportunity Act of 1964; current authorization for the
program is Title I, Subtitle C, of the Workforce Investment Act of 1998.

Job Corps career development services to students include academic, vocational,
social, and independent living skills, career readiness training, and support services.
The combination of services provided in the Job Corps is intended to prepare youth to
obtain and hold gainful employment, pursue further education or training, or satisfy
entrance requirements for careers in the Armed Forces.

The Los Angeles Job Corps Center is managed by the YWCA. This is the only center
the YWCA operates. For contract year 2006, the Los Angeles Job Corps Center had a
student capacity of 735 and an annual budget of about $19 million. Job Corps’ San
Francisco Regional Office was and continues to be responsible for monitoring the Los
Angeles Job Corps Center.




U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property

                                                                              APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA


Objective

Our audit objective was to determine if the allegations were substantiated. The
complainant alleged the following:

        •   The YWCA charged the Job Corps contract for the cost of developing a
            proposal in response to a RFP issued by Job Corps for the operation of the
            Long Beach Job Corps Center.

        •   The CEO of the YWCA used a government vehicle for personal use.

        •   The YWCA charged unnecessary bank fees to the Job Corps contract.

        •   Costs for a new YWCA accounting system were improperly charged to the
            Job Corps contract.

        •   A child care center operated by the YWCA and used by Center staff and
            students was operated on contaminated land.

        •   Center employees were required to join an illegal pension fund operated by
            the YWCA.

Scope

We conducted our audit in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. A
performance audit requires obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In planning our audit, we considered
whether internal controls considered significant to the audit were properly designed and
placed in operation.

The scope of our audit included a review of the following as related to the allegations in
the hotline complaint: proposal development costs; the use of a government vehicle;
bank fees, costs of an accounting system, land use, and pension plans. We reviewed
transactions, as related to the allegations, processed by the Center between July 2001
and November 2005. We conducted our audit in Los Angeles and San Francisco,
California.




U.S. Department of Labor—Office of Inspector General                                      17
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property

Methodology

To determine the merits of the allegations, we interviewed Regional Job Corps staff,
Center staff, a YWCA consultant, the CEO of the YWCA, and the President and
Treasurer of the Board of Directors for the YWCA. We also reviewed cost schedules
prepared by Center staff, Center Transportation Vehicle Master Lists, and relevant
Federal laws, regulations, and guidance. In addition, we conducted a complete physical
inventory of Center vehicles.

To meet our objective, we reviewed selected internal controls over payroll charges,
vehicle use, and other relevant program activities and related expenditures. Our work
on established internal controls included reviewing policies and procedures, interviewing
key personnel, and reviewing selected documentation to observe the controls in place.
Our testing related to internal controls focused only on the controls related to our audit
objective of determining whether the allegations were substantiated and was not
intended to form an opinion on the adequacy of internal controls overall, and we do not
render such an opinion. Internal control weaknesses noted from our testing of controls
are discussed in Objectives 1 and 2 of this report.

We conducted our fieldwork from October 3, 2005, through May 25, 2006. We
conducted our audit in accordance with Government Auditing Standards.

Criteria
In addressing the audit objectives, we reviewed relevant Federal laws, regulations, and
guidance. These included the following:

     1.   Job Corps PRH
     2.   Los Angeles Job Corps Center Contract
     3.   United States Code, Title 29.
     4.   OMB Circular A-122, Attachment A
     5.   OMB Circular A-87, Attachment B
     6.   ETA Property Management Handbook No. 359




18                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property

                                                                              APPENDIX C
ACRONYMS AND ABBREVIATIONS


CEO           Chief Executive Officer
DOL           Department of Labor
ETA           Employment and Training Administration
GSA           General Services Administration
OIG           Office of Inspector General
PRH           Policy and Requirements Handbook
RFP           Request for Proposal
YWCA          Young Women’s Christian Association of Greater Los Angeles




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 09-06-005-01-370
Los Angeles Job Corps Center:
Allegations of Misuse of DOL Funds and Property




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor – Office of Inspector General
                                                             Report Number: 09-06-005-01-370
                                                                Los Angeles Job Corps Center:
                                              Allegations of Misuse of DOL Funds and Property

                                                                              APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General                                      21
Report Number: 09-06-005-01-370
